No. 19-1301
CLYDE S. BOVAT,
Petitioner,

v.
VERMONT,

Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief of Amicus Curiae National Association for Public Defense in Support of Petitioner was
sent via overnight FedEx to the U.S. Supreme Court
and a digital copy was sent to counsel for Petitioner
and Respondent by electronic mail on June 19, 2020.
The parties have consented to electronic service.
Kirti Datla
Hogan Lovells US LLP
555 13th Street, NW
Washington, DC 20004
(202) 637-5600
kirti.datla@hoganlovells.com
Counsel for Petitioner

Erica Marthage
Bennington County State’s Attorney
150 Veterans Memorial Drive, Suite 10
Bennington, VT 05201
(802) 442-8116
erica.marthage@vermont.gov
Counsel for Respondent
/s/ Thomas M. Bondy
Counsel of Record

